                                  CLOSEOUT FOR M-96020003

        On 8 February 1996, a program officer' brought an allegation of misconduct in
science to OIG's attention. The complainant's2 ad hoe review of an NSF proposal3 contained
an allegation of plagiarism against subject 1, the PI, and subject 2, the co-PI. He alleged that
the subjects plagiarized text and a figure from a source d~cument.~        Although the source
document was listed in the proposal's reference section and cited in the text of the proposal,
the similar text and figure were neither distinguishedSfrom the other material in the proposal
nor cited to the source document.

        OIG identified about 26 lines of similar or closely paraphrased text from the source
document in the proposal that had not been distinguished from the other proposal's text or
cited to the source document. All the identified text appeared in the background section of
the proposal. OIG noted that the source document was cited in the body of the proposal three
times, but not in connection with the apparently copied text or figure. OIG determined that
the figure in the proposal that appeared to be identical to a figure in the source document
represented general knowledge and, as such, was no longer considered as part of the
allegation of plagiarism. OIG's comparison of the source document and the NSF proposal
noted that several of the ideas presented in the proposal were substantially similar or identical
to ideas in the source document, but they had not been cited to it giving rise to an allegation
of intellectual theft.

        OIG wrote to subject 1 requesting information about the allegations of verbatim
plagiarism and intellectual theft. The subject said that the source document's author knew
that the proposal contained information from the source document. The subject explained,
and provided documentation to support his explanation, that originally the author was to be
the co-PI on the proposal. As co-PI, the author received the preliminary draft of the
proposal, which contained the identical and substantially similar text and ideas. After
reading the draft proposal, the author provided comments and also explained that he had to




 differentiate copied material and original material in a document.

                                              page 1 of 2                               M 96-03
                            CLOSEOUT FOR M-96020003

withdraw as the co-PI because of other conflicting conimitments on a competing project. At
the same time, he gave subject 1 permission to use any of his ideas from one of his papers6 in
the proposal, suggested that subject 1 get another co-PI, and encouraged subject 1 to proceed
with the submission of the proposal. Subject 1 arranged with subject 2 to be the new co-PI.
Because subject 1 had prepared most of the proposal prior to adding subject 2 as a co-PI,
subject 2 was no longer considered a subject in this case.

        OIG's review of the author's paper showed that it summarized much of the
information contained in the source document. OIG determined that the ideas in the
subjects' proposal were in the paper the co-author had given the subject permission to use.
OIG concluded that there was no substance to the allegation that subject 1 committed
intellectual theft.

        At OIG's request, subject 1 corrected the proposal to accurately identify and attribute
the text that was derived from others' work. He sent corrected copies of the relevant pages of
the proposal to the program officer. OIG verified that the subject had adequately addressed
all the issues related to the copied text and that the corrected pages had been placed in the
program jacket.

       This case is closed and no further action will be taken.

cc: staff scientist, AIG-Oversight, legal, IG




                                      page 2 of 2                                      M 96-03
